                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                       Kansas Secretary of State



                  APRIL 29, 2003 THROUGH DECEMBER 31, 2010




Report No.
E-HP-KS-03-11
August 2011
                         U.S. ELECTION ASSISTANCE COMMISSION


                                 OFFICE OF INSPECTOR GENERAL


                                1201 New York Ave. NW - Suite 300


                                      Washington, DC 20005




                                                                                   August 22, 2011
Memorandum


To:		      Thomas Wilkey
           Executive Director

From:		    Curtis W. Crider
           Inspector General

Subject:		 Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the Kansas Secretary of State (Assignment Number E-HP-KS-03-11)

       We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the Kansas Secretary of State (SOS). The contract required that the audit be
done in accordance with U.S. generally accepted government auditing standards. Clifton
Gunderson is responsible for the attached auditor’s report and the conclusions expressed therein.

        In its audit of the SOS, Clifton Gunderson concluded that, except for failure to maintain
adequate equipment/property maintenance records, lost interest on the state match not made timely,
use of HAVA program income to meet state match, and questioned costs charged to the HAVA
funds, the SOS generally accounted for and expended HAVA funds in accordance with the HAVA
requirements and complied with the financial management requirements established by the U.S.
Election Assistance Commission. The SOS Election Division also complied with section 251
requirements.

        In his July 6, 2011 response to the draft report (Appendix A-1) and his March 24, 2011
response to the findings and recommendations (Appendix A-2), the SOS was in general agreement;
however, he believes that the Kids Voting Kansas was an appropriate use of HAVA funds. The
SOS stated that they would work with the EAC to resolve the issues, and requested a timely
resolution to avoid additional costs from the compounding of interest.

        Also, we have included in the report the EAC response to the draft report (Appendix A-3),
dated July 6, 2011, which stated the action proposed to assist the SOS in resolving the finding and
recommendations. We would appreciate being kept informed of the actions taken on our
recommendations as we will track the status of their implementation. Please respond in writing to
the finding and recommendation included in this report by October 24, 2011. Your response should
include information on actions taken or planned, targeted completion dates, and titles of officials
responsible for implementation.

       The legislation creating the Office of Inspector General (5 U.S.C. § App.3), as amended,
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                     
                     
     PERFORMANCE AUDIT REPORT
 


ADMINISTRATION OF PAYMENTS RECEIVED
 

             UNDER THE
 

       HELP AMERICA VOTE ACT
 

               BY THE
 

          STATE OF KANSAS
 


 April 29, 2003 Through December 31, 2010


       UNITED STATES ELECTION
 

       ASSISTANCE COMMISSION
 

                     
                     
                     
                     
                     




                     a1 
                                                  TABLE OF CONTENTS




                                                                                                                             PAGE
 


EXECUTIVE SUMMARY ............................................................................................................1



BACKGROUND..........................................................................................................................2



AUDIT OBJECTIVES .................................................................................................................3



SCOPE AND METHODOLOGY .................................................................................................4



AUDIT RESULTS .......................................................................................................................4



APPENDICES
 


Appendix A-1: Kansas Secretary of State Response to Draft Report ...................................9



Appendix A-2: Kansas Secretary of State Response to Findings and Recommendations10
 


Appendix A-3: U. S. Election Assistance Commission Response to Draft Report.............13
 


Appendix B: Audit Methodology............................................................................................14
 


Appendix C: Monetary Impact at December 31, 2010...........................................................15
 

                        U.S. Election Assistance Commission
 

        Performance Audit of the Administration of Payments Received Under the
 

                    Help America Vote Act by the State of Kansas
 


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General (OIG) to conduct a performance audit of the Kansas
Secretary of State (SOS) for the period April 29, 2003 through December 31, 2010 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for property purchased with HAVA payments and for
program income, and met HAVA requirements for Section 251 funds for an election fund and for
a matching contribution.

Our audit did not include a determination that the SOS met the requirements for maintenance of
a base level of state outlays, commonly referred to as Maintenance of Expenditures (MOE). On
June 28, 2010, the Commission issued a revised definitive policy on the requirements for the
MOE. The policy included a provision that the states will have 12 months from the date of the
revised policy to voluntarily submit a revised MOE plan to the EAC. Accordingly, our scope of
audit did not include a determination of whether the SOS and its subgrantees met the
requirements for MOE.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •		 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •		 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87, Cost Principles for State, Local, and
       Indian Tribal Governments.

   •		 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for failure to maintain adequate equipment/property maintenance records, lost interest
on the state match not made timely, use of HAVA program income to meet state match, and
unallowable expenses charged to the HAVA funds, our audit concluded that the SOS generally


                                                1


accounted for and expended HAVA funds in accordance with the requirements mentioned
above for the period from April 29, 2003 through December 31, 2010. The exceptions needing
SOS’s management attention are as follows:

   1.	 	Records for HAVA funded equipment for the SOS election voter information system and
        for voting equipment at three counties did not conform to 41 C.F.R. 105-71.132 (d) (1),
        (the Common Rule). Missing elements in the records included the source of the
        property, percentage of federal participation in the cost of the property, the location, use,
        and condition, and any ultimate disposition data such as date of disposal and sale price
        of the property.

   2.	 	A portion of the state matching funds were deposited into the election fund after the
        receipt of the 2004 requirements payment, resulting in lost interest to the election fund.

   3.	 	HAVA program income funds of $82,010 were used to meet the 2009 and 2010 state
        match requirements without EAC approval.

   4.	 	Unallowable SOS HAVA expenses of $20,000 for the Kids Voting Kansas program and
        $949.51 for printing voter registration forms.

We have included in this report, as Appendix A-1, the SOS management’s formal response to
the draft report dated July 5, 2011, which expanded on their responses to the findings and
recommendations dated March 24, 2011 (Appendix A-2). Although we have included
management’s written responses to our notices of findings and recommendations, such
responses have not been subjected to the audit procedures and, accordingly, we do not provide
any form of assurance on the appropriateness of the responses or the effectiveness of the
corrective actions described therein.

The SOS generally agreed with our recommendations except for the questioned costs for Kids
Voting Kansas. The SOS believes that it is a worthwhile goal to educate future voters on the
registration process and the election process in general. Also, the SOS’s reiterated the necessity
to resolve all questioned costs through the use of unclaimed matching funds and that his office
and the counties have spent non-HAVA monies on HAVA activities in amounts far greater than
the amounts mentioned as reimbursable in this report.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of Federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

   •		 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for Federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements
       payments.

   •		 Title I, Section 102 payments are available only for the replacement of punch card and
       lever action voting systems.




                                                 2

    •		 Title II, Section 251 requirements payments are for complying with Title III requirements
        for voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •		 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b) (5)].

    •		 “Maintain the expenditures of the state for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the state for
        the fiscal year ending prior to November 2000.” [Section 254 (a) (7)].

    •		 Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the Federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254 )(b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Kansas Secretary of State:

    1.	 	Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
         HAVA and applicable requirements;

    2.	 	Accurately and properly accounted for property purchased with HAVA payments and for
         program income;

    3.	 	Met HAVA requirements for Section 251 funds for an election fund and for a matching
         contribution except for the requirements for maintenance of a base level of state outlays,
         commonly referred to as Maintenance of Expenditures (MOE). On June 28, 2010, the
         Commission issued a revised definitive policy on the requirements for the MOE. The
         policy included a provision that the states will have 12 months from the date of the
         revised policy to voluntarily submit a revised MOE plan to the EAC. Accordingly, our
         scope of audit did not include a determination of whether the SOS and its subgrantees
         met the requirements for MOE.

In addition to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.	 	Comply with the Uniform Administrative Requirements for Grants and Cooperative
         Agreements with State and Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations at 41 CFR 105-71.

    2.	 	Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the OMB.




                                                 3

                                                                                                                                1
      3. Submit detailed annual financial reports on the use of Title I and Title II payments.

 SCOPE AND METHODOLOGY

 We audited the HAVA funds received and disbursed by the SOS from April 29, 2003 through
 December 31, 2010 (92-month period) are shown in the following table:
                    FUNDS RECEIVED                                                                                                           
 TYPE OF    EAC    PROGRAM    STATE    INTEREST    TOTAL    FUNDS                                                                DATA

 
PAYMENT  PAYMENT  INCOME      MATCH     EARNED    AVAILABLE  DISBURSED                                                           AS OF

 
                                                                                                                                       
Section 101       $  5,000,000     $         8,730    $             0           $1,279,081        $6,287,811       $1,911,595     
                                                                                                                                 12/31/2010 
Section 102                  0                   0                  0                    0                 0                0    12/31/2010 
Section 251       24,022,045          1,376,675    $1,264,319                    2,391,757        29,054,796       21,536,541    12/31/2010 
                                                                                                                                            
   Total          $29,022,045     $1,385,405    $1,264,319                      $3,670,838       $35,342,607      $23,448.136    12/31/2010 

 Our audit methodology is set forth in Appendix B.
 AUDIT RESULTS

 We conducted this performance audit in accordance with Generally Accepted Government
 Auditing Standards. Those standards require that we plan and perform the audit to obtain
 sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
 based on our audit objectives. We believe that the evidence obtained provides a reasonable
 basis for our findings and conclusions based on the audit objectives. Because of inherent
 limitations, a study and evaluation made for the limited purposes of our review would not
 necessarily disclose all weaknesses in administering HAVA payments.

 Except for the maintenance of adequate property records, interest on the state match, use of
 program income to meet the state match, and unallowable costs for educating children about
 voting and printing of voter registration cards, our audit concluded that the SOS generally
 accounted for and expended HAVA funds in accordance with the requirements mentioned
 above. The SOS has taken action on or is working to resolve the exceptions described below
 as set forth in Appendix A-1 and A-2:

 I.   Property Records

 The Election Voter Information System equipment listings we received from the Kansas SOS,
 and HAVA voting equipment listings from three of the six counties we visited did not conform to
 the requirements of 41 CFR 105-71.132 (d)(1), (the Common Rule).

 Various data were missing from the property records, including the source of property, who
 holds the title, the acquisition date, and cost of the property, percentage of Federal participation



 1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
 Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
 previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
 year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
 20XX for the fiscal year ended that date and will be due by December 31, 20XX.


                                                                           4

in the cost of the property, the location, use and condition of the property, and any ultimate
disposition data such as the date of disposal and sale price of the property.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132(d)(1), referred to as the Common Rule, states
that property records must be maintained that include a description of the property, a serial
number or other identification number, the source of property, who holds the title, the acquisition
date, cost of the property, percentage of Federal participation in the cost of the property, the
location, use and condition of the property, and any ultimate disposition data including the date
of disposal and sale price of the property.

Recommendation:

1.	 	We recommend that the EAC work with the SOS to ensure that the SOS and counties
     maintain property records with minimum information required by the Common Rule.

SOS’s Response:

The SOS agreed that HAVA inventory records do not meet the standards of the Common Rule.
He stated that prior to the audit his office was not aware of this requirement. The state is
working on policies to bring HAVA equipment records into compliance and will work on
compliance moving forward. The SOS said the requirements have been communicated to
counties and an inventory template will be provided to counties. Counties will be required to
submit records to the SOS yearly.

II.	 	Interest on State Match

Kansas received $13,748,141 in Section 251 funds on November 29, 2004. The state’s
matching funds requirement was $723,587, of which $434,152 was provided by the state and
$289,435 was provided by the counties. The county matching funds consisted of payments to
the SOS, which were deposited into the state’s election account. However, not all of the
counties’ contributions were received by the state prior to the receipt of the Section 251
requirements payments. A total of $197,236 was received between December 13, 2004 and
April 4, 2005, resulting in an undetermined amount of lost interest earnings for the period from
November 29, 2004 to the date the matching funds were deposited in the election account.
Furthermore, until the state transfers this interest in the election account, the interest due to the
account increases for additional interest

HAVA Section 254 (b) (1) requires that the following monies be deposited into the state’s
election fund:

                    A.	 	Amounts appropriated or otherwise made available by the State for
                         carrying out the activities for which the requirements payment is
                         made to the State under this part (the State matching requirement
                         of five percent of the federal HAVA Section 251 funds).
                    B.	 	The requirements payment made to the State (the federal HAVA
                         Section 251 funds).
                    C.	 	Such other amounts as may be appropriated under law.
                    D.	 	Interest earned on deposits of the fund.




                                                 5

Recommendation:

2.	 	We recommend that the EAC work with Kansas officials to calculate the amount of interest
     to transfer to the election account for the period from November 29, 2004 through April 4,
     2005, plus the additional compounded interest as of April 4, 2005, and any additional
     compounded interest owed through the date of the transfer.

SOS’s Response:

The SOS said that his office was not aware of the requirement to make matching fund payments
prior to the receipt of the requirements payment. The state will work with EAC and the state’s
Accounts and Reports division to calculate the amount of interest and compounded interest.

III.	 S
      	 tate Matching Funds

Kansas received additional Section 251 requirements payments for 2009 and 2010, which
required state matching funds. Kansas used HAVA program income to meet the matching
requirement. However, the Common Rule allows the use of program income as state match
only when authorized. EAC does not have a policy authorizing the use of program income as
state match, and Kansas did not have authorization from EAC to use program income as state
match.

The HAVA program income was collected from Kansas counties as fees to access the HAVA
funded state Election Voter Information System. Kansas transferred matching funds of $48,241
and $33,769 for a total of $82,010 from its HAVA program income account to the HAVA state
matching account on September 14, 2010. There were no new funds received for the state
match, because the transfer was from one HAVA account to another HAVA account instead of
funds coming from the state general fund. As a result interest on the $82,010 was not earned
for the HAVA program.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.125(g)(3), referred to as the Common Rule, states
that: “When authorized, program income may be used to meet the cost sharing or matching
requirement of the grant agreement.”

Recommendations:

We recommend that the EAC require Kansas officials:

3.	 	To transfer state funds totaling $82,010 to restore the program income funds that were used
     to satisfy the state matching requirement.

4.	 	To calculate the amount of interest that would have been earned on the shortfall in the
     program income account and include that amount in the transfer, plus the additional
     compounded interest that should have been earned from September 14, 2010 to the date of
     the transfer.

SOS’s Response:

The SOS agreed with the corrective action recommended and will work with the EAC to resolve
the issue. The SOS believes, however, that the program income derived from county payments


                                               6


is similar in nature to county payments for the state match made in 2004 and 2005 and is
therefore allowable for state match purposes. The state also requests that EAC choose to allow
the use of program income to meet matching requirements as allowed by the Common Rule.

Auditor’s Response:

The income earned by allowing counties to access the HAVA funded Election Voter Information
System does meet the definition of program income in the Common Rule and is different from
the funds provided to meet the state match. Matching payments are funded from state
resources as a requirement to receive federal funds. Program income payments were made to
allow access to federally funded services (the state Election Voter Information System). The
use of such program income to meet the state match is not allowable unless authorized by EAC.

IV. Unallowable Expenses

Kansas used Section 101 Help America Vote Act (HAVA) funds totaling $20,000 for the Kids
Voting Kansas program. The expenses included $19,000 for the curriculum and teaching
guides and $1,000 to reimburse travel for implementation of the program. The purpose of this
program was to inform school age children about the voting process and to increase voter
turnout in participating localities, since the parents would be involved in assisting the children
with the program.

Kansas also used $949.51 in Section 101 HAVA funds to print voter registration forms in
Spanish. EAC has determined that the use of HAVA funds for such purposes is not an
allowable cost.

HAVA Section 101(b) Use of Payment describes the qualifying expenditures and includes, in
part:

   (1)(B)	 	 Improving the administration of elections for federal office

   (1)(C)	 	 Educating voters concerning voting procedures, voting rights, and voting
             technology

   (1)(D)	 	 Training election officials, poll workers, and election volunteers

EAC Funding Advisory Opinion FAO-08-005 states that:

   Neither Section 101 nor 251 funds may be used to print, copy, or revise State voter
   registration forms. Providing forms is an activity that States have been carrying out for
   years, is not a requirement imposed by HAVA, is not educational (even if there are
   instructions on the form), is not an improvement to the administration of elections for
   Federal office and must continue to be funded by the State.

Recommendation:

5.	 	The EAC should work with the SOS to decide whether to allow or disallow the costs
     associated with the Kids Voting Kansas and the printing of voter registration forms.




                                                 7


SOS’s Response:

The SOS disagrees with the finding that providing funds to Kids Voting Kansas would fall
outside the scope of voter education. The SOS office believes that it is a worthwhile goal to
educate future voters on the registration process and the election process in general.
Moreover, educating students often educates and motivates their parents to participate in the
election process. Because the National Student and Parent Mock Election grant program was
authorized in HAVA, Kansas decided to support the program’s efforts to educate the voting
public of today and tomorrow.

The SOS agrees with the finding related to printing of Spanish language voter registration cards.
The SOS said that Spanish cards were funded with HAVA money in an effort to ensure the
accessibility of its election process to alternative language voters.

For exceptions II through IV above, the SOS reiterated the necessity to resolve all questioned
costs through the use of unclaimed matching funds. His office and many of the 105 counties
have spent non-HAVA monies on HAVA activities in amounts far greater than the amounts
mentioned as reimbursable in this report. The SOS requested a timely resolution of the issues
by the EAC to avoid further compounding of interest.

Auditor’s Response:

EAC has determined that the use of HAVA funds to educate non-voters and to increase voter
turnout is not allowed under HAVA.


                              ****************************************


We provided a draft of our report to the appropriate individuals of the Kansas SOS, and the
EAC. We considered any comments received prior to finalizing this report.

The EAC responded on July 6, 2011 and generally agreed with the report’s findings and
recommendations. The EAC stated that they would work with the SOS to gather additional
information to enhance their understanding of the state’s use of program income to satisfy state
matching requirements. The EAC’s complete response is included as Appendix A-3


CG performed its work between January 31, 2011 and February 18, 2011.


a1 
Calverton, Maryland
March 2, 2011




                                                 8


                                                                                                      Memorial Hall, 1st Floor
                                                                                                        120 S.w. 10th Avenue
    Krus W.     KOBACH                                                                                Topeka, KS 66612-1594
    Secretary of State                                                                                        (785) 296-4575
                                                                                                              www.sos.ks.gov


                                                STATE OF KANSAS

                                                         July 5, 2011




          Mr. Curtis Crider 

          Inspector General 

          U.S. Election Assistance Commission 

          1201 New York Ave. NW - Suite 300 

          Washington, DC 20005 


          Dear Mr. Crider:

          Thank you for the opportunity to respond to the draft report from Clifton Gunderson LLP. My staff and I
          have reviewed this report and wish to make several comments.

          On report items 2-4: the repayment of lost interest, the use of program income for the required state match
          payments, and all questioned costs, I would like to reiterate the necessity to resolve these issues through
          the use of unclaimed matching funds. This office and many of our 105 counties have spent non-HAV A
          monies on HAV A activities in amounts far greater than the amounts mentioned as reimbursable in this
          report. My staff will provide whatever documentation the Election Assistance Commission finds
          necessary to demonstrate these expenditures.

          Secondly, I would like to suggest a correction on the amount discussed in item three of the report. The
          report indicates that a total of $82,026 in program income was used to meet the state match requirements
9




          for FY09 and FYI O. Actual state match required and transferred was $82,010 (48,241; $33,769).
          Documentation of the required amounts is included with this letter.

          Finally, if my office is to be held responsible for compounded interest on the amounts in question, I
          request that the EAC move forward with its recommendations in a timely manner. Each day that these
          issues remain unresolved adds to the amounts in question. Having been told not to take any corrective
          action until directed by the EAC, I will wait to act until such time; however, a timely resolution is
          requested if we will be required to cover the compounding interest while waiting on the EAC to act.

          I thank you for the opportunity to comment on this draft report and look forward to a speedy resolution of
          the items discussed in this report.

          Sincerely,




          KRIS W. KOBACH 

          Kansas Secretary of State 

                                                                                                    Appendix A-2
                                             Kansas Secretary of State Response to Findings and Recommendations

                                                                                               Memorial Hall, 1st Floor
                                                                                                 120 S. W. 10th Avenue
KRIS   W.   KOBACH                                                                             Topeka, KS 66612-1594
Secretary of State                                                                                      (785) 296-4575
                                                                                                       www.sos.ks.goy


                                          STATE OF KANSAS
                                                 March 24, 2011




     Mr. Curtis Crider
     Inspector General
     U.S. Election Assistance Commission
     1201 New York Ave. NW - Suite 300
     Washington, DC 20005

     Deal' MI'. Crider:

     Thank you for the oppotiunity to respond to the foul' Notices of Findings and Recommendations from
     the recent audit of Kansas's HAVA program. I took office on January 10,2011, only 21 days before
     the auditors arrived; consequently the issues discussed below pre-date my tenure as Kansas Secretary
     of State. However, my staff and I have reviewed these findings in detail. We submit the following
     response and look forward to working with the Election Assistance Commission to resolve these
     issues.

     One - Property management
     While my staff agrees that our inventory records do not meet the standards laid out in the Common
     Rule, this requirement was never communicated to our state prior to the arrival of the auditors. In
     conversations with the on-site auditors and after a review of other audit repotis on your website, we
     realize that failure to comply with this potiion of the Common Rule is a common occurrence among
     the various states. This speaks not only to the detailed nature of the inventory requirements, but also
     to the fact that these requirements were never communicated to the states.

     That said, my staff is working on policies to bring our records into compliance with the requirements
     ofthe Common Rule and will work to maintain compliance moving forward. These requirements
     have already been communicated to our counties through a quatierly newsletter and will be
     communicated again at our annual HAVA training. We will provide inventory templates to our
     counties and require that they submit records to our office yearly. In addition, we welcome the
     EAC's suggestions on best practices for creating and maintaining compliant inventory records.

     Two - Interest on state match
     With the announcement of additional HA VA funds in 2004, Kansas counties provided 2 percent of
     the required state match. However, not all county payments were received before the federal money
     was deposited into our fund. Our office was unaware that this was a requirement, and we continued
     to deposit checks as they arrived at our office.

     I-laving been made aware of this issue, we are willing to work with the EAC and our state's Accounts
     and RepOlis division to calculate the amount of interest and compounded interest.



                                                   10
Three - State matching funds
In August of201 0 the previous administration made a decision to use money from Kansas counties
to meet the required state matches for the 2009 and 2010 requirements payments. This decision was
made after the legislature denied a request by this agency for a state general fund appropriation in
2009. The money used was derived from an annual fee counties pay to our office, which is deposited
into a state fund as determined by the Secretary of State and the State Division of Accounts and
RepOlis. At the time this decision was made this office did not consider this to be program income. In
fact, it did not become clear that this fee might meet the definition of program income until this
office began the reporting process in December 2010. This is indicated by the fact that it was not
reported until the FFY201 0 reports. Until that time, we viewed this money exactly like the money
provided by counties to meet early state match requirements.

This office agrees with the corrective action recommended in the NFR and will work with the EAC
to resolve this issue. However, we request that the EAC choose to allow the use of program income
to meet matching requirements as allowed by the Common Rule. This office feels that this is fair,
particularly when this fee by any other name would be no different than the county money used to
meet matching requirements in 2003 and 2004.

Foul' - Questioned costs
Kids Voting Kansas
In principal this office disagrees with the finding that providing funds to Kids Voting Kansas would
fall outside the scope of voter education. This office believes that it is a wOlihwhile goal to educate
futlll'e voters on the registration process and the election process in general. Moreover, educating
students often educates and motivates their parents to participate in the election process. Because the
National Student and Parent Mock Election was authorized in HA VA, it was decided to support the
program's efforts to educate the voting public of today and tomorrow.

Voter registration cards
On the questioned costs for Spanish voter registration cards, we disagree with the finding with
respect to the dollar amount. According to our records, only $949.51 was spent on the printing of the
relevant voter registration cards. We suspect that the $1,558 was derived by adding in the cost for
English cards that were paid off the same payment voucher but funded with state money. The policy
of the previous administrations has been to print English cards with state money. Spanish cards were
funded with HA VA money in an effOli to ensure the accessibility of our election process to
alternative language voters.

Proposed solution to any final monetary claims
We recognize that three of the issues in our audit report may require the state of Kansas to reimburse
our HA V A funds for any amounts we are not able to resolve through working with the EAC. We also
recognize that the current fiscal situation in Kansas makes it extremely unlikely that we will receive a
state general fund appropriation to mcet these requirements, nor will our agency's fee funds be able
to absorb such an unbudgeted expense. Therefore, we request that any unresolved balances be
charged against HA VA-I'clated expenditures paid for with state and local money during our
implementation of HA VA. We see this taking two forms: I) Money paid by counties for voting
equipment in excess of their HA VA allotment. 2) HA VA expenses paid for out of Secretary of State
fee funds, including but not limited to salary, benefits, computers and other equipment used to carry
out the requirements of the Help America Vote Act within the state of Kansas. While we have not




                                                 11
compiled a figure at this point, we believe this total to be substantial enough to cover all items
discussed in this audit report.

Finally, we would like to take this opportunity to thank you and the team from Clifton Gunderson.
From the beginning of this audit process, our requests and questions were answered promptly with
respect and professionalism. The on-site auditors, John Borrelli and K.B. Mandefro, were flexible
and understanding, yet thorough in their audit, explaining their findings as we progressed. Theil'
competence and professionalism made the audit process go smoothly for all involved.

We look forward to working with the EAC to resolve these issues and thank you for the opportunity
to respond to these NFRs. Across three administrations, mUltiple financial systems, and foul' HA VA
coordinators, we are proud of the work that we have done to implement HAVA in the state of
Kansas. We will continue to work hard to make sure that elections in Kansas are the most secure, fair
and accessible elections in the country.

Sincerely,




Kansas Secretary of State




                                                12
                                                                             Appendix A-3
                               U.S. Election Assistance Commission Response to Draft Report




                   EAC RESPONSE TO THE DRAFT AUDIT:
                   O/G Performance Audit Report on the Administration of
                   Payments Received Under the Help America Vote Act by the
                   State of Kansas, for the Period April 29, 2003 Through
                   December 31, 2010

July 6,2011

MEMORANDUM

To:           Curtis Crider
              Inspector General

              Thomas Wilkey
              Executive Director

Subject: 	    Draft Performance Audit Report - "Administration of Payments
              Received Under the Help America Vote Act by the State of
              Kansas".

Thank you for this opportunity to review and respond to the draft audit report for
Kansas.

The Election Assistance Commission (EAC) has reviewed the preliminary audit
results and recommendations. While we generally concur with the findings, we
will work with the Kansas Secretary of State to gather additional information to
enhance our understanding of the state's use of program income to satisfy state
matching requirements.




                                      13
                                                                                        Appendix B
                                    AUDIT METHODOLOGY
 



Our audit methodology included:

•		 Assessing audit risk and significance within the context of the audit objectives.

•		 Obtaining an understanding of internal control significant to administration of HAVA funds.

•		 Understanding relevant information systems controls as applicable.

•		 Identifying sources of evidence and the amount and type of evidence required.

•		 Determining whether other auditors have conducted, or are conducting, audits of the
    program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•		 Interviewed SOS employees about the organization and operations of the HAVA program.

•		 Reviewed prior single audit report and other reviews related to the state’s financial
    management systems and the HAVA program for the last 2 years.

•		 Reviewed policies, procedures and regulations for the SOS’s management and accounting
    systems as they relate to the administration of HAVA programs.

•		 Analyzed the inventory lists of equipment purchased with HAVA funds.

•		 Tested major purchases and supporting documentation.

•		 Tested randomly sampled payments made with the HAVA funds.

•		 Reviewed certain state laws that impacted the election fund.

•		 Examined appropriations and expenditure reports for state funds used to meet the five
    percent matching requirement for section 251 requirements payments.

•		 Verified the establishment and maintenance of an election fund.

•		 Conducted site visits of selected counties/towns to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding

     �   Ensure compliance with HAVA Act.




                                                14
 

                                                                                                    Appendix C
                                                                                                                    


                 MONETARY IMPACT AS OF DECEMBER 31, 2010
 



                                                              Questioned           Additional Funds for
                     Description                                Costs                    Program

     Program Income Used for Matching                                    $0                         $82,010

     Kids Voting Kansas Promotion                                 $20,000                                  $0

     Printing Voter Registration Forms                                $950                                 $0
                                                                                                             2
     Totals                                                       $20,950                           $82,010




2
  There is an undetermined amount of interest income to be transferred to the election account on delayed deposit of
state matching funds, on re-imbursement of program income, and on any questioned costs that the EAC requires re­
payment to the election fund.


                                                        15

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
